                                                 INSPECTION




 U.S. DEPARTMENT OF THE
 INTERIOR PROGRAM STARTUP
 INSPECTION:
 OFFICE OF SURFACE MINING APPALACHIAN REGIONAL
 REFORESTATION INITIATIVE




Report No.: ER-IS-OSM-0011-2011                  November 2011
             OFFICE OF 

             INSPECTOR GENERAL 

             U.S.DEPARTMENT OF THE INTERIOR
                                                                              NOV   t~ o   2011

To: 	          Joseph Pizarchik
               Director, Office of Surface Mining Reclamation and Enforcement

From: 	        Kimberly Elmore ~ ~ ~
               Assistant Inspector General for Audits, Inspections, and Evaluations

Subject: 	    Inspection - U.S. Department of the Interior Program Startup Inspection:
              Office of Surface Mining Appalachian Regional Reforestation Initiative
              Report No. ER-IS-OSM-0011-2011

        The Office of Inspector General conducted an evaluation to identify how program
planning is accomplished within the U.S Department of the Interior (DOl). In order to provide a
useful tool for the Department as it develops new programs or revises existing programs, we set
out to answer two specific questions:

    • 	 What program planning processes are used by the bureaus?
    • 	 What are the successful aspects of each program planning model?

       During the course of our evaluation we identified four distinct program planning models
used by the bureaus. These include the:

    • 	 Collaboration-based program planning model, which focuses on building and
        maintaining trust among stakeholders, establishing a common goal, and using the
        strengths of the different stakeholders to achieve program objectives.

    • 	 Business-based program planning model, which focuses on cost analysis to make
        management decisions about where and how to target activities efficiently.

    • 	 Science-based program planning model, which focuses on applying the best evidence
        resulting from the scientific method to decision making processes.

    • 	 Performance-based program planning model, which focuses on managing 

        organizational performance by evaluating program results. 


        On September 28, 2011 , we issued an evaluation report titled "U.S. Department of the
Interior Program Startup Evaluation" (Report No. ER-EV -MOA-000 1-201 0). The evaluation
found that each bureau adjusts their program planning process based on a basic 7-step planning
model. The variations tailor the process in order to help the bureau meet its program goals.

      As part of our original evaluation, we reviewed the Office of Surface Mining
Reclamation and Enforcement's (OSM) Appalachian Regional Reforestation Initiative (ARRI).



                              Office of Inspector General I Washington , DC
ARRI’s goals are to communicate and encourage mine reforestation practices that plant high
value hardwood trees on reclaimed coal mine lands in Appalachia, increase the survival rates and
growth rates of planted trees, and expedite the establishment of forest habitat through natural
succession. Because OSM’s ARRI initiative did not have well-developed performance measures
as part of the program planning process, we are reporting our findings and providing
recommendations as a separate inspection report.

Background

       In order to fulfill the DOI mission, new programs must be properly planned and
evaluated. An effective planning process helps establish a justification for program budgets,
determine program priorities, define program goals, and provide a means for evaluating program
accomplishments. Because DOI provides limited program planning guidance, each bureau and
program office has been left to its own devices.

        Program planning involves a variety of elements, including identifying program need and
capacity, planning for resource allocation and use, assuring service delivery, preparing to
respond to critical events, and evaluating program activities and outcomes. In its simplest form,
program planning may be defined as the selection of related, purposeful activities to be
undertaken in order to achieve one or more objectives. Undertaking a long-term strategic
planning process can provide the necessary framework for program planning. Strategic planning
can help identify the organizational goals to be achieved over a specific period of time as well as
the resources needed to achieve the desired goals.

        In the four program planning models we identified during our review, we found that each
used the same basic process, starting with identifying a specific issue and ending with a feedback
and evaluation process. Although these models represent variations of a basic process, each was
tailored to meet specific program needs.

Results of Inspection

        OSM achieved the ARRI program’s goals over time due to: a limited, selective, and step­
wise inclusion of stakeholders; focusing on a common goal; and having an organizational
structure with defined roles.

        At the time of our review, we noted that OSM’s ARRI initiative had performance
measures in place, though they were focused primarily on tracking output-oriented activities
such as in the number of trees planted or the tree survival rate over a period of time. Measures
that focus primarily on output encourage short-term actions and do not measure progress toward
creating or sustaining collaboration and results.

         While these measures can be useful, we believe that definitive, outcome-oriented
objectives and measures will help define the success of not only the collaboration-based planning
effort, but also the impact of the collaboration on the broader reforestation initiative. These
measures could prove to be beneficial in identifying the strengths and weaknesses of not only the
collaboration, but also the impact of ARRI’s long-term success.


                                                 2


Recommendations

       The Director of the Office of Surface Mining Reclamation and Enforcement should:

           •		 Develop and implement meaningful performance measures for ARRI. These
               performance measures should focus on collaboration efforts, community
               benefit/capacity building, and changes over time in land conditions resulting
               from reforestation efforts.

        We would appreciate being kept apprised of the actions planned, or taken, on our
recommendations as we will track the status of their implementation. We ask that you inform us
of the planned course of action of the recommendations within 30 days.

      If you have any comments or questions regarding the advisory, please call me at 202­
208-5512.




                                               3


                                  EVALUATION




 U.S. DEPARTMENT OF THE
 INTERIOR PROGRAM STARTUP
 EVALUATION




Report No.: ER-EV-MOA-0001-2010   September 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                                   SEP 2 8 2011
Memorandum

To:            Rachel Jacobson, Assistant Secretary, Fish and Wildlife and Parks
               Larry Echo Hawk, Assistant Secretary, Indian Affairs
               Marcilynn Burke, Assistant Secretary, Land and Minerals Management
               Anne Castle, Assistant Secretary, Water and Science

From:          Mary L. Kendall
               Acting Inspector Genera

Subject:       U.S. Department of the Interior Program Startup Evaluation
               Report No. ER-EV-MOA-0001-2010

        This memorandum transmits our evaluation report on the U. S. Department of the
Interior' s program planning processes. We performed an evaluation to identify what program
planning processes are used by the bureaus, and what factors lead to success in the program
planning processes identified.

         We found four different models of program planning used by the five bureaus we
reviewed. These include a collaboration-based program planning model used by the Office of
Surface Mining for the Appalachian Regional Reforestation Initiative; a business-based program
planning model used by the U. S. Fish and Wildlife Service for the Chesapeake Bay Restoration
effort; a science-based program planning model used by the U.S. Geological Survey for the
Global Climate Change Program; and a performance-based program planning model used by the
Bureau of Reclamation for the WaterSMART grant program. One program, the Bureau oflndian
Affairs Youth Initiative, was early in its program planning process and did not have a well­
defined process in place. We believe that programs such as the Bureau oflndian Affairs Youth
Initiative that are in early stages of development or undergoing revision could benefit from our
findings by using one of the models we have identified.

      For programs where we identified areas of improvement, we have provided specific
recommendations in separate memoranda to each ofthe appropriate bureaus.

        Should you have any questions, please do not hesitate to contact me at 202-208-5745 .




                               Office of Inspecto r General   I W ashington , DC
Table of Contents
Results in Brief ....................................................................................................... 1


Introduction............................................................................................................. 2


       Objective ......................................................................................................... 2


       Background ..................................................................................................... 2


Bureau Program Planning Case Studies ................................................................. 4


       Collaborative-Based Program Planning Model: Office of Surface Mining –


       Appalachian Regional Reforestation Initiative ............................................... 4


       Business-Based Program Planning Model: U.S. Fish and Wildlife Service –


       Chesapeake Bay Strategic Habitat Conservation Pilot Program..................... 5


       Performance-Based Program Planning: Bureau of Reclamation – Water


       Sustain and Manage America’s Resources for Tomorrow (SMART) Grant


       Program ........................................................................................................... 7


       Science-Based Program Planning: U.S. Geological Survey – Global Climate


       Change............................................................................................................. 8


Summary............................................................................................................... 11


Appendix 1: Scope and Methodology................................................................... 12


Results in Brief
The U.S. Department of the Interior (DOI) is challenged to identify and
implement new programs to meet its mission of protecting our Nation’s natural
resources and heritage, honoring our cultures and tribal communities, and
safeguarding resources to supply the energy needs to power our future. In order to
meet this challenge, new DOI programs must be properly planned and evaluated.

Although effective planning does not guarantee a program’s success, an effective
planning process helps justify program budgets, determine program priorities,
define program goals, and provide a means for evaluating program
accomplishments.

Our review of programs within DOI identified four distinct planning models.
These models include:

   •		 The collaboration-based program planning model used by the Office of
       Surface Mining (OSM) for the Appalachian Regional Reforestation
       Initiative (ARRI), which focuses on building and maintaining trust among
       stakeholders, establishing a common goal, and using the strengths of the
       different stakeholders to achieve program objectives.

   •		 The business-based program planning model used by the U.S. Fish and
       Wildlife Service (FWS) for the Chesapeake Bay Restoration effort, which
       focuses on using cost analysis to make management decisions about where
       and how to target conservation activities efficiently.

   •		 The science-based program planning model used by U.S. Geological
       Survey (USGS) for the Global Climate Change program, which focuses on
       applying the best evidence resulting from the scientific method to decision
       making processes.

   •		 The performance-based program planning model used by the U.S.
       Bureau of Reclamation (USBR) for the Water Sustain and Manage
       America’s Resources for Tomorrow (WaterSMART) grant program,
       which focuses on managing organizational performance by evaluating
       program results.

We hope our evaluation can be a resource for DOI and its bureaus when planning
new, or modifying existing, programs.




                                                                                 1
Introduction
Objective
We conducted this evaluation to identify how program planning is accomplished
within the U.S Department of the Interior (DOI). We set out to answer the
following questions:

   •   What program planning processes are used by the bureaus?
   •   What are the successful factors of each program planning model?

By addressing these questions, we hope to provide a useful tool for DOI and its
bureaus as it develops new programs or revises existing programs.

Background
Program planning is a problem-solving process through which an organization
develops a plan to achieve specific objectives. Program planning involves a
variety of elements, including identifying program needs and capacity, planning
for resource allocation and use, assuring service delivery, preparing to respond to
critical events, and evaluating program activities and outcomes. In its simplest
form, program planning is defined as the selection of related, purposeful activities
to be undertaken to achieve one or several related objectives. Undertaking a long-
term strategic planning process can provide the framework needed for program
planning. Strategic planning can help identify the organizational goals to be
achieved over a specific period of time and the resources needed to achieve the
desired goals.

The Departmental Manual provides limited program planning guidance. In the
absence of definitive Department-level guidance, each bureau and program office
has been left to its own devices.

In this evaluation we reviewed program planning at five bureaus: OSM, FWS,
USBR, USGS, and BIA. At the time of our review, we noted that four of these
bureaus had well-developed program planning models; one bureau, BIA, did not.
Because BIA did not have a well-developed program planning process at the time
of our review, we have reported our findings in a separate report. Similarly, for
two other bureaus (OSM and USBR) where we have found issues that need to be
further addressed, we have prepared separate reports.

In the program planning models we identified during our review, we found that
each used the same basic 7-step process, but tailored it to meet the specific
program needs. Although there are several variations of the basic process that can
be used to ensure programs are properly planned, each model includes the same
general components, starting with identifying a problem and ending with
feedback and evaluation (Figure 1).



                                                                                   2
                                       Adequate data describing the problem and a
                                       theory explaining the causes of the problem
 Step
      Identify the problem             must be established so that reasonable
  1
                                       decisions can be made about where and how
                                       to intervene in the causal process.
                                       Identify clear goals and objectives, to design
                                       a program, administer it completely, and to
      Develop objectives               measure its performance. Programs must be
 Step
      and performance                  strongly associated with the organization's
  2
      measures                         overall mission. Using the organization’s
                                       mission as the starting point, planning should
                                       identify major goals and objectives.
                                       Program planning should be tied to the
      Link the program
                                       organization’s strategic plan by developing a
 Step strategy to the
                                       framework for how goals can best be met.
  3   organizational
                                       This framework should serve as the
      strategic plan
                                       roadmap for the new program.
                                       Primary stakeholders or their
 Step Identify key                     representatives must be directly involved in
  4   stakeholders                     the program planning process to provide
                                       perspectives from their point of view.
                                       Identify the appropriate resources to ensure
 Step Identify needed                  that program planning is performed with the
  5   resources                        right mix of people and with an adequate
                                       amount of funding needed to ensure success.
                                       Coordinate activities through high-level
 Step Coordinate program               influence and direction to mitigate
  6   activities                       institutional and cultural differences among
                                       bureaus.
                                       Feedback and evaluation on the impact of a
                                       program is vital in determining program
 Step Feedback and                     success. A process of continuous monitoring
  7   evaluation                       allows changes and corrections to be made
                                       to address unanticipated issues in program
                                       implementation.

Figure 1. Components of a basic program planning process.

The results of our review focus on individual case studies and do not apply to
each bureau’s program planning method overall. This review focuses on the key
elements of each program’s success as well as opportunities for improvement.




                                                                                   3
Bureau Program Planning Case Studies
The case studies we present represent a snapshot in time of how the basic program
planning processes have been applied within DOI. Since DOI does not provide
specific guidance, the programs we reviewed have used models that are a variant
of the process depicted in Figure 1. We have identified elements of each model
that we believe contributed to program achievements.

Collaborative-Based Program Planning Model: Office
of Surface Mining – Appalachian Regional
Reforestation Initiative
The Office of Surface Mining (OSM) established the Appalachian Regional
Reforestation Initiative (ARRI) in 2004 to address reclamation of de-forested
surface mined lands in the Appalachian region. Restoration efforts failed prior to
the establishment of the ARRI initiative.

Competing interests and an uncoordinated strategic approach were the primary
underlying reasons why earlier efforts failed. In addition, clear goals could not be
identified and the efforts failed to sustain the necessary leadership to define and
develop an effective program strategy. Combined with decisions to accommodate
special interest groups, the political pressure to respond quickly to public
concerns over land stability and contaminated water sources interfered with an
orderly program planning process.

In creating ARRI, the bureau improved upon its past experiences and
implemented a collaborative-based program planning model, or what OSM calls a
Concentric Management Approach, to address the reforestation issue. OSM took
on a leadership role by coordinating input among its partners to define the vision
and mission and develop a strategic approach for the program.

By including only specific partners sharing the vision and goals of the initiative,
the collaborative effort used an interdisciplinary approach employing the
expertise from the Federal, state, academic, and non-profit sectors. Partner
relationships were formalized by signing a statement of mutual intent, which
served as the program’s operating guidelines. By including only those partners
that agreed to the initiative’s approach, program managers had more control over
the planning process and were better positioned to deflect external pressures that
might have resulted in a repeat of program failure.

The collaborative approach to program planning places a considerable emphasis
on building and maintaining relationships with key partners by focusing on a
common goal, as well as in using the strengths of the different partners to achieve
the program’s goals. While a formal organizational structure may be necessary,
our observations led us to believe that, within a collaborative model, a
bureaucratic structure should be avoided since many of the steps in the planning


                                                                                      4
process may not succeed in a more rigid organizational environment. In this case,
the planners recognized the impacts that a traditional hierarchical organizational
structure can have on the collaborative planning process and appear to have been
successful in maneuvering around the associated barriers, particularly with respect
to lines of communication.

For example, our conversations with program managers and stakeholders
suggested that the most significant tasks in the planning process were identifying
the problem and reaching a consensus on the best approach to address
reforestation issues. Face-to-face dialogue proved to be the most useful tool in
overcoming organizational barriers and creating the necessary trust among
stakeholders. By using both horizontal and vertical communication approaches,
the program planners successfully avoided pitfalls such as leveling (simplification
of information) and sharpening (exaggeration of details) that occur with
unproductive communications. Once consensus was achieved on the main issues
and a strategy was developed, the program managers and their partners effectively
navigated through the remainder of the planning process. Goals were established
and metrics were developed to measure program achievements over time.

The hallmark of the collaborative effort focused on the interaction between the
bureau and its partners in developing a long range strategy and program goals. At
the time of our review, ARRI successfully fostered partnerships among 382
individuals from 207 organizations.

Through the use of a collaborative-based planning model, OSM has been able to
develop an effective program that has demonstrated success and sustainability
over time. Goals for the initiative have been achieved gradually. We believe the
initiative has achieved a degree of success because of OSM’s ability to:

   •   Identify and selectively engage key partners from various sectors;
   •   Establish a clear vision, strategy, and structure;
   •   Develop performance measures to evaluate their achievements;
   •   Maximize partnerships through sharing of resources and expertise; and
   •   Provide leadership by coordinating among the partners.

Business-Based Program Planning Model: U.S. Fish
and Wildlife Service – Chesapeake Bay Strategic
Habitat Conservation Pilot Program
As one of several Federal agencies actively engaged in the restoration and
conservation of the Chesapeake Bay, the U.S. Fish and Wildlife Service (FWS)
initiated the Chesapeake Bay Strategic Habitat Conservation (SHC) pilot
program, a long-range strategy for addressing conservation and restoration efforts
associated with the bay. This pilot program is designed to eliminate inefficiencies
in resource allocations through coordination with the bureau’s regional partners.
Specifically, SHC is a science-based framework for making management
decisions about where and how to manage conservation efficiently to achieve

                                                                                   5
specific outcomes. Prior to developing this program, conservation efforts for the
bay were managed through 5 separate programs located at 27 field stations, each
with different areas of focus.

In designing the SHC pilot program, the bureau used a business-based model
approach. From this business perspective, the bureau’s primary focus is on its
return on investment (i.e., measurable gains). Paying particular attention to the
leveraging of resource and mitigating redundancy with the goal of eliminating
wasteful spending, the bureau is focused on using activity-based costing (ABC) as
its primary method of tracking costs against on-the-ground activities. ABC is a
cost management tool designed to provide insight into the real costs of an
organization - its activities (the work that it performs) and its outputs (products
and services). Using ABC allows field, regional, and national managers to
enhance decision-making by aligning available resources with program priorities.

The bureau’s approach includes developing a set of planning and reporting
measures that leverage workload data and performance information across the
pilot program. Although early in development, the bureau’s efforts should
position the program to respond more effectively to change, as well as provide
them with greater capabilities to more fully justify their future budgetary needs.

As part of their business-based methodology, the bureau also uses an adaptive
management approach, a process of continuous program monitoring to allow
changes and corrections to be made to address unanticipated issues in program
implementation. The strategy employed by the bureau in the business-based
model is intended to improve decision making by using performance data
obtained through continuous monitoring to develop budgets, to plan and
coordinate resources where the need is greatest, to implement new activities when
needed, and to evaluate the effectiveness of restoration activities.

The program’s performance measures are tied directly to DOI’s strategic planning
process. The bureau communicates its goals to field units in order to develop
meaningful performance measures that target resources to maximize the return on
investment.

When considering the stages of the planning process, the bureau has used the
business-based model to:

   •		 Identify issues and allocate resources in needed areas;
   •		 Align their program strategy and coordinate program activities with their
       key partners; and
   •		 Define clear program objectives and performance measures.




                                                                                     6
Performance-Based Program Planning: Bureau of
Reclamation – Water Sustain and Manage America’s
Resources for Tomorrow (SMART) Grant Program
The Department’s Water Sustain and Manage America’s Resources for
Tomorrow (WaterSMART) program is an umbrella initiative for multiple
programs, including the Bureau of Reclamation’s (USBR) grant program. The
WaterSMART program was designed to maximize water savings and improve
water management in the Western United States. Since 2004, 184 projects have
been funded through this program. By combining $76 million in Federal funding
with local partnerships, the WaterSMART program has constructed water
management improvements of over $240 million in 16 states. The USBR
WaterSMART grant program evolved from the bureau’s predecessor, the Water
2025 Challenge Grant program, and provides cost-sharing assistance on a
competitive basis for a variety of water conservation projects.

In creating its WaterSMART grant program, the bureau used a performance-based
program planning model focusing on the ability of its grantees to support the
objectives of the program. The bureau develops, defines, and identifies specific
requirements and uses grant announcements as a major vehicle for
communicating the levels of required performance for grantees. In this case,
performance management consists of an integrated set of planning, reviewing, and
monitoring procedures that cascade down through the organization, providing a
link between the grantee performance and the overall strategy of the bureau.
The program planning process itself is a multi-tiered, top-down activity initiated
in the USBR Office of Policy and Administration under a program coordinator.
Key decisions about resources and program goals are developed by the program
coordinator with input from the regional coordinators and from bureau leadership.
The process uses a “corporate team” approach, employing experienced staff from
the bureau’s five regional offices. One of the primary functions of the process is
to develop program goals, the criteria needed to obtain the goals, and procedures
necessary to develop and maintain the program. To do this, the bureau solicits
input directly from its partners who are served by the grants. In this way the
bureau is better positioned to meet the needs of the end users. The program
processes are transparent and regularly communicated to USBR staff and
partners.

The program’s performance measures are tied directly to the program’s and
DOI’s strategy. Our discussions with the program coordinator indicated that on a
cyclical basis, the strategy is reviewed and updated to ensure that key program
goals are included in the plan.

The WaterSMART grant program has been able to meet its goals in part because
the program has:

   •   Centralized leadership and planning activities;


                                                                                   7
   •		 Clearly defined a strategy, program vision, and goals;
   •		 Defined expectations and established performance measures to evaluate
       grantee performance;
   •		 Identified necessary resources; and
   •		 Coordinated planning with the bureau’s stakeholders.

Science-Based Program Planning: U.S. Geological
Survey – Global Climate Change
In 1990, Congress enacted the Global Change Research Act (P.L. 101-606),
calling for a comprehensive and integrated research program to assist the Nation
and the world in understanding, assessing, predicting, and responding to global
climate change. As a result of this act, the U.S. Global Change Research Program
(USGCRP), a multi-departmental effort intended to address global climate change
issues, was established. USGS is one of 13 Federal departments and agencies
participating in the USGCPR and is responsible for coordinating Federal research
on changes in global environment.

In February 2010, DOI issued an amendment to Secretarial Order 3289,
Addressing the Impacts of Climate Change on America’s Water, Land, and Other
Natural and Cultural Resources. The order and its amendment serve as the
bureau’s guideline for the Global Climate Change program, through which USGS
coordinates activities among the other bureaus to increase the understanding and
impact of global climate change.

USGS serves as a repository of data for decision makers. In developing the
climate change program, the bureau used a science-based model. The data
generated by USGS impacts domestic and international climate change policies,
and the program planning model used by the bureau is driven by the application
of science. The science-based program planning model focuses on establishing
credible scientific data to be used by decision makers for political and public
support on a variety of environmental issues. The premise of the bureau’s science-
based model assumes that:

   •		 Data generated by the bureau will be provided in a manner that facilitates
       its ease of use; and
   •		 The science behind the data will be recognized as important, but as only
       one of the components of information considered in the decision making
       processes for policy development.

When considering the components of program planning, USGS expended a
considerable amount of time and energy on establishing credible scientific data.
The bureau’s use of the science-based planning model has created an environment
of cooperation for the planning process. The scope and scale of the program
planning process is designed in such a manner as to encourage collaboration at all
levels from scientists, science center chiefs, and regional and national leaders. All
of the components of program planning follow a standardized approach, which

                                                                                    8
has been carefully detailed in a bureau guide entitled "Program Planning in the
USGS." The planning process is guided by program priorities, partner and
customer needs, and availability of funding. The planning process incorporates a
set of detailed “guiding principles” specifying that each program within the
bureau are to be coordinated in order to maximize the value and impact of science
(see Figure 2).

                              USGS Guiding Principles

      •		   All programs are bureau programs and the portfolio of USGS programs will
            be coordinated to maximize the value and impact of USGS science.

      •		   Program planning attempts to encourage innovation and good ideas in all parts
            of the organization.

      •		   Program planning encourages collaboration and provides for diversity of
            decision-making models with involvement at all levels from scientists, science
            center chiefs, and regional and national leaders.

      •		   Program planning implies a contract among participants, i.e., project and
            program implementation includes performance management and
            accountability.

      •		   Program planning ensures effective implementation of projects, defines
            outcomes, and ensures excellence and timeliness.


Figure 2. USGS Guiding Principles.

The program planning process includes the establishment of clearly defined
objectives, identifiable stakeholders and partners, defined deliverables, and
specified annual funding targets. As events change based on science, however, the
objectives, deliverables, and targets are also likely to change. The bureau has
developed an internal review process whereby modifications in the planning
process can be implemented only after a thorough review has been performed.
Typically, changes must be based on valid internal or external factors that are
related to the availability of funds, changes in partnership relations, or
modifications to program performance. The program must have an approved
operational plan coupled with regional strategic plans as well as the bureau’s
broader strategic plan. The operational plan describes the decision-making
approaches used within the program and must be vetted and approved by a
bureau-level program council. Approval of the plan represents a contract
governing how the individual program will be implemented.

Strategic plans developed by the bureau’s regions describe focus areas as well as
scientific priorities and goals for the individual regions. The regions are
responsible for identifying annually the challenges, opportunities, and priorities




                                                                                             9
for collaboration in the planning process. 1 Bureau guidelines indicate that the
regional science priorities and plans will be geographically and topically focused
and developed with input from across the bureau and with stakeholders.

USGS has developed a plan for a coordinated, science-based response to climate
change impacts. When considering the stages of the planning process, the bureau
has used the science-based model to:

    •		   Define a clear mission and objectives;
    •		   Establish clear budget requirements;
    •		   Incorporate an institutionalized approach for program planning; and
    •		   Uphold a reputation for credible science that benefits decision makers and
          withstands public scrutiny.




1
 USGS has eight regions: the Southeast, South Central, Northeast, Midwest, Rocky Mountains, Northwest,
Southwest, and Alaska.

                                                                                                     10
Summary
We found that DOI uses various approaches for identifying or requiring processes
for developing new programs or revising existing programs. For the programs we
evaluated across DOI, we have identified different program planning models.
Although the basic structure of the 7-step planning process is similar for each
model, we have highlighted the ways in which each program varied the planning
process and the unique characteristics of each approach that brought the greatest
benefit.

Our evaluation was intended to provide a resource for the Department and
bureaus to use when planning new programs or modifying existing programs and
may serve as a starting point for such discussions.




                                                                               11
Appendix 1: Scope and Methodology
We performed this evaluation in accordance with the Council of Inspectors
General on Integrity and Efficiency “Quality Standards for Inspections.” We
conducted an evaluation to identify the basic elements as well as the different
models of program planning used within the U.S. Department of the Interior. The
intent of this evaluation is to provide a product that can be used as a planning
resource for managers in developing new programs or in revising existing
programs.

We focused our evaluation on case studies we performed on five programs and
limited our review to programs that were recommended by the bureaus based
upon our request to identify programs considered either successful or identified as
being new. We did not predefine “success;” rather, we left it to the bureaus for
their own interpretation. No attempt was made on our part during the evaluation
to determine the relative degree of success or failure of the programs we
examined. The programs we evaluated were in varying stages of program
planning and implementation.

As part of our evaluation, we:

   •		 Obtained a general understanding of program planning within BIA, BLM,
       FWS, OSM, and USGS;
   •		 Conducted site visits and interviewed officials from the various DOI
       bureaus;
   •		 Reviewed documentation and reports internal to the respective bureaus
       and the sites we visited;
   •		 Performed other work that we considered necessary; and
   •		 Reviewed laws and regulations and Departmental and bureau guidance
       pertaining to program planning.




                                                                                12
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
